HHS/OIG-Audit-"Review of Mutual of Omaha's Settlement Procedures for Provider-Based Home Health Agencies,"(A-07-01-02630)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Mutual of Omaha's Settlement Procedures for Provider-Based Home
Health Agencies," (A-07-01-02630)
January 8, 2002
Complete
Text of Report is available in PDF format (757 KB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of Mutual of Omaha's (Mutual's)
settlement procedures for provider-based home health agencies (HHAs).   The
objective of our review was to determine whether Mutual had adequate controls to
settle HHA cost reports.   We found that Mutual did not always settle
HHA cost reports using reliable Provider Statistical and Reimbursement (PS&R)
data.  Consequently, Mutual overpaid two HHA providers a total of $179,018
because Mutual used incorrect PS&R data. Additionally, Mutual found that periodic
interim payments (PIP) were incorrectly determined at final settlement.  Mutual
revised PIP for the two providers, which increased the total overpayment to $316,949.